United States Department of Agriculture
Office of Inspector General




Identifying Areas of Risk in the Child and
Adult Care Food Program (CACFP) Using
Automated Data Analysis Tools




                                          Audit Report 27099-0001-DA
                                          January 2012
                          United States Department of Agriculture
                                 Office of Inspector General
                                   Washington, D.C. 20250




DATE:          January 31, 2012

AUDIT
NUMBER:        27099-0001-DA

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Acting Director
               Office of Internal Control
                Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General
                for Audit


SUBJECT:       Identifying Areas of Risk in the Child and Adult Care Food
               Program (CACFP) Using Automated Data Analysis Tools


The report presents the results of our audit, Identifying Areas of Risk in the Child and Adult
Care Food Program (CACFP) Using Automated Data Analysis Tools. Your written
response to the official draft is included in its entirety at the end of this report. Excerpts of
your December 7, 2011, response and the Office of Inspector General’s (OIG) position are
incorporated into the applicable sections of the report. Based on your response, we were
unable to reach management decision on recommendations 1, 2, and 3. Management
decisions for the recommendations can be reached once you have provided the additional
information outlined in the report section OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
planned corrective actions. Please note that the regulation requires management decision to
be reached on all recommendations within 6 months of report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Recommendation Summary ....................................................................................2
Background and Objectives ....................................................................................3
Background...............................................................................................................3
Objectives ..................................................................................................................4
Section 1: FNS and the States’ Monitoring Efforts Need Strengthening ..........5
   Finding 1: FNS and the States Need to Work More Closely with Monitors
   to Identify Potentially Higher Risk Sites Requiring Additional Oversight ....5
         Recommendation 1 ........................................................................................7
         Recommendation 2 ........................................................................................7
         Recommendation 3 ........................................................................................8
Scope and Methodology ...........................................................................................9
Abbreviations .........................................................................................................10
Agency’s Response .................................................................................................11
Identifying Areas of Risk in the Child and Adult Care Food
Program (CACFP) Using Automated Data Analysis
Tools – 27099-0001-DA

Executive Summary

The Food and Nutrition Service’s (FNS) Child and Adult Care Food Program (CACFP) provides
nutritious meals and snacks to participants in daycare institutions, such as child care centers,
daycare homes, and adult daycare centers. These CACFP sites are reimbursed based on the
number of eligible meals and snacks served to children and adults, so the meal counts they
provide to their respective States are a critical part of how CACFP operates. The Office of
Inspector General (OIG) initiated this audit to determine whether data analysis of these sites’
meal counts could provide a valuable technique for identifying sites at higher risk of inflating
their meal counts.

In order to test the capability of data analysis to identify sites that could be inflating their meal
counts, we selected Florida (because it was one of the top five States in terms of the number of
participants) and Michigan (because we wanted to see how the recession was affecting inner city
neighborhoods). We visited 56 high risk1 sites in these two States to determine if daycare
providers were claiming more meals than the actual number of meals they served.

We found that one third of the sites visited were historically claiming more meals than we
observed during our visits. Although these observations do not necessarily demonstrate that the
site operator is committing fraud, it does indicate that data analysis could be used to identify sites
that may need additional oversight and thereby improve the integrity of the program. These
problems occurred because FNS and the States rely largely on the monitor’s limited reviews to
ensure that the sites are reporting accurate meal claims and complying with FNS program
requirements. However, the monitors do not fully utilize data analysis to target higher risk sites
and there are also weaknesses concerning the timing of reviews and the consistency of analysis
performed during monitoring visits.

We are therefore recommending that FNS and the States work with program sponsors to improve
their monitoring techniques to ensure site visits occur throughout the month, using consistent,
standardized guidance and to develop inexpensive, readily available, data analysis tools to
identify higher risk sites for additional review.




1
  High risk sites are sites where fraud may occur within the organization and are determined by identifying potential
schemes and events that need mitigating. The existence of a fraud risk assessment and the fact that management is
publicizing its existence may also serve to deter would-be fraud perpetrators. High risk sites were determined by
analyzing each State’s data to identify sites with high meal claims, based on enrollment and dollar volume; sites
with higher average daily participation than enrollment; sites that were claiming more than three meals per child per
day (i.e., claiming more than two meals and a snack or two snacks and a meal); and sites that were claiming more
than 90 percent attendance every month.

                                                                           AUDIT REPORT 27099-0001-DA              1
Recommendation Summary
FNS needs to work with the States to design inexpensive data analysis techniques for sponsoring
organization monitors to target error-prone facilities more frequently. FNS needs to work with
the States to encourage sponsors to visit sites early in the month and schedule their visits more
randomly. FNS also needs to issue guidance for the 5-day reconciliation so that monitors will
perform the reconciliation consistently, using standardized procedures to identify anomalies and
specify action necessary to correct and/or resolve common discrepancies.

Agency Response
FNS concurs with our recommendations. By September 30, 2014, FNS plans to conduct an in-
depth State agency CACFP operations analysis to consult with stakeholders and review
information systems and processes to determine opportunities to use existing data in helping
sponsors identify error-prone facilities.

FNS is in the process of developing a proposed regulation that will include requiring sponsoring
organizations to vary the timing of sponsored facilities’ monitoring to make the reviews
unpredictable. Final regulation is expected to be published by September 30, 2013.

Using the results of the in-depth State agency CACFP operations analysis, FNS will issue
additional guidance to include standard procedures for reconciliation reviews, specific corrective
actions to identify and resolve reconciliation reviews, and policy clarification on the
disallowance of ineligible meals. FNS plans to issue this guidance by December 31, 2012.

OIG Position

FNS stated that implementation of corrective actions will not be complete within one year for
Recommendation 1 and 2. Because Recommendation 3’s implementation of corrective action
may take over a year, we do not accept management decision. To reach management decision
for each of the recommendations, FNS will establish a time phased corrective action plan with
interim completion dates.




2    AUDIT REPORT 27099-0001-DA
Background and Objectives

Background

The Department of Agriculture’s FNS administers CACFP to ensure that children and adults in
daycare facilities receive nutritious meals by providing reimbursement to child and adult care
institutions to assist with the cost of their meals.2 In fiscal year (FY) 2009, CACFP provided
1.88 billion meals, worth $2.5 billion. Of the 1.88 billion meals, 64 percent (1.2 billion) were
served at child care facilities, 32 percent (600 million) were served at daycare homes for
children, and 4 percent (70 million) were served at adult care facilities.3

Although CACFP is administered by FNS at the Federal level, the agency relies on the States to
implement the program. In Florida and Michigan, the responsible State agency enters into
agreements with, and provides technical and supervisory assistance to, participating institutions
(sponsoring organizations and independent centers). A representative from the State agency
monitors all institutions.

Monitors—some of whom work for sponsors (which oversee sponsored centers and family
daycare homes) and some of whom work for the State agency (which oversees sponsoring
organizations and independent centers)—oversee the daycare sites. A monitor’s responsibilities
include conducting reviews of the sites to ensure compliance with the program’s requirements
and to ensure that corrective action is taken to resolve any deficiencies identified. Monitors for
sponsors are required to review each of the sponsor’s sites three times per year (unless
additional reviews of seriously deficient or higher risk sites are needed, in which case at least
two additional unannounced reviews are required).

For independent centers reporting directly to the State, each center is monitored once every three
years by a State monitor. Part of the analysis that monitors perform related to meal counts is
called the “5-day reconciliation.” Monitors must examine the meal counts recorded by the
facility for five consecutive days during the current and/or prior claiming period. For each day
examined, monitors must use enrollment and attendance records to determine the number of
participants receiving care during each meal service and attempt to reconcile those numbers to
the numbers of breakfasts, lunches, suppers, and/or snacks recorded in the facility’s meal count
for that day. In Florida, if the number of participants served on the day of the review is less than
85 percent of the 5-day average, the center must provide a plausible explanation. If a plausible
explanation is not provided, the center is to be counseled regarding the consequences of program
fraud and abuse, and meals may be disallowed. Michigan compares the meals claimed in the last
5 days with the daily attendance and enrollment records, but does not use a standard threshold
level. If there are differences, the State may disallow meals, or it may give the provider a
warning and schedule a followup review.



2
  CACFP was authorized by section 17 of the Richard B. Russell National School Lunch Act, with program
regulations at Title 7, Part 226 of the Code of Federal Regulations.
3
  Healthy, Hunger-Free Kids Act of 2010 (S.3307; Senate Report. 111-178).

                                                                       AUDIT REPORT 27099-0001-DA        3
FNS provides CACFP funding to States in the form of grants. The amount of this funding is
based on the number of meals served at the sites in the individual States. In FY 2009, FNS
provided $2.5 billion in CACFP funding nationwide—over $137 million to Florida and almost
$55 million to Michigan.

Objectives
Our objective was to determine whether data analysis can be effectively used to review
additional CACFP sites that are at higher risk of inflating their meal counts.




4    AUDIT REPORT 27099-0001-DA
Section 1: FNS and the States’ Monitoring Efforts Need
Strengthening

Finding 1: FNS and the States Need to Work More Closely with Monitors to
Identify Potentially Higher Risk Sites Requiring Additional Oversight
Based on our data analysis results, we visited 56 high risk sites in Florida and Michigan to
determine if the daycare providers were claiming more meals than the actual number of meals
served. We found that one third of the sites we visited were historically claiming more meals
than we observed during our visits. Our data analysis included two specific tools: the 5-day
reconciliation which monitors use during their visits; and the “average daily participation test,”
which we created to compare the number of observed participants to the prior month’s average
number of participants claimed for reimbursement. On the two tests we performed during our
visit, 20 sites did not pass the 5-day reconciliation and 19 did not pass the average daily
participation test. Although these observations from a single visit do not necessarily demonstrate
that the site operator is committing fraud, they do indicate that data analysis could be used to
identify sites that require additional oversight. FNS and the States, with limited resources, rely
largely on the monitors’ limited reviews to ensure that the sites are reporting accurate meal
claims and complying with the FNS program requirements. The monitors, however, do not fully
utilize data analysis to identify higher risk sites; there are also weaknesses concerning the timing
of reviews and the consistency of the analysis the monitors perform during the visits. We are
therefore recommending that FNS and the States work with program sponsors to improve the
monitoring techniques and develop inexpensive, readily available, data analysis tools to identify
high risk sites for additional review.

When sites sign up for CACFP, they agree that they will submit only accurate meal claims to the
State for reimbursement. As part of their role in monitoring the program, the States are
responsible for implementing controls to ensure that the program is meeting its objectives and
that the number of meals reimbursed is accurate. FNS, for its part, reimburses the States for
meals served and provides the States with program guidance on how to operate the program
effectively.

We found, however, that of the 56 sites that were at higher risk of overstating their claims, many
did not pass the “5-day reconciliation,” which compares the number of children served a
particular meal type on the day of the review with the number of children served the same meal
type over a 5-day period of meal service, and the “average daily participation test,” which
compares the number of observed participants with the prior month’s daily average number of
participants.

   ·   In Florida, we tested 33 sites and found that 13 did not pass the 5-day reconciliation and
       14 did not pass the average daily participation test.
   ·   In Michigan, we tested 23 sites and found that 7 did not pass the 5-day reconciliation and
       5 did not pass the average daily participation test.



                                                                AUDIT REPORT 27099-0001-DA        5
In order to ensure that sites participating in CACFP comply with program requirements and do
not overstate the number of meals they claim, all States rely on monitors who visit the sites
where, among other analysis performed, they count the number of participants being served a
meal, compared to the number of participants claimed under CACFP. Some monitors work
directly for sponsors, while other monitors work directly for the States.

In addition to visiting sites, some sponsor monitors are also responsible for processing the
paperwork associated with the monthly meal claim reimbursements. In these sponsoring
organizations, monitors process paperwork during the first 15 days of the month and visit sites
the last 15 days of the month. We found that the predictability of when these reviews occur
enables sites to potentially manipulate the number of meals they claimed. In Florida, we
analyzed 654 sponsor monitor reviews and determined that 514, or 79 percent, took place after
the middle of the month. In Michigan, we analyzed 70 monitor reviews and determined that 50,
or 71 percent, took place after the middle of the month. Very few reviews, in both States, took
place early in the month. If sites can anticipate when a review will occur, they can better prepare
to ensure that they meet FNS program requirements and potentially choose to report fewer meals
as the end of the month nears. By reporting fewer participants as the likely time of inspection
approaches, they could potentially manipulate their attendance numbers and enhance their ability
to meet the requirements of the 5-day reconciliation.

Finally, we found that sponsor monitors did not always perform the 5-day reconciliation
consistently. We found that, of the 70 Michigan monitor reviews, 30 monitor reviews included
the date of the review among the 5 days for the test; 11 monitor reviews selected days in the
future, or selected days from prior months. OIG maintains that the wide variability in how these
reviews are performed could allow monitors to select days for the 5-day reconciliation that
justify overstated meal claims. Additionally, Michigan did not use an average of the last five
days, with an 85 percent threshold, that Florida used for its 5-day reconciliation in similar type
facilities. FNS guidance on performing the 5-day reconciliation does allow for some variability,
but we believe that being more specific about how the 5-day reconciliation should be conducted,
including establishing standard procedures, will improve the integrity of the program and the
accuracy of meal claims submitted for reimbursement.

Furthermore, in Florida, State officials are not fully utilizing the data analysis tools available.
We found that an important edit check, intended to help identify sites at higher risk of
overstating their meals, was not functioning as intended. This edit check, which was supposed to
calculate the average daily meal count, was averaging meal counts using the total number of days
in a month (28, 29, 30, or 31), as opposed to the actual number of operational days in the month
(usually 20 to 22). This error allowed sites to claim meals for days that they were not open and
the edit check did not identify their claim as overstated. When we brought this error to the
attention of Florida officials, they took immediate steps to correct the problem. The control,
however, had not been serving a useful function for some time.

OIG concluded that FNS and the States should work with the monitors to make use of
inexpensive and readily available data analysis techniques to identify higher risk sites and
improve the techniques used during monitoring related to the timing and 5-day reconciliation.
Many of our tests to identify high risk sites were performed using commercial, off-the-shelf

6    AUDIT REPORT 27099-0001-DA
software, which can quickly identify sites with unusually high participation rates, or with an
unusually high number of operating days and attendance trends. Such simple analytical
techniques can result in data analysis that will allow FNS and the States to identify problematic
sites quickly and with little expenditure of resources.

Recommendation 1
Work with the States to design inexpensive data analysis techniques for sponsoring organization
monitors to target error-prone facilities more frequently.

Agency Response
FNS agrees with our recommendation. By September 30, 2014, FNS plans to conduct an in-
depth State agency CACFP operations analysis to consult with stakeholders and review
information systems and processes to determine opportunities to use existing data in helping
sponsors identify error-prone facilities. After this analysis, FNS will consider developing
guidance on high risk indicators and data analysis tools.

OIG Position
FNS has stated that implementation of corrective actions will not be complete within one year
for this recommendation. Therefore, to reach management decision, we are working with FNS
to establish a time phased corrective action plan with interim completion dates for the
recommendation.

Recommendation 2
Work with the States to encourage sponsors to visit sites early in the month and schedule their
visits more randomly.

Agency Response
FNS agrees with this recommendation and estimates completion by September 30, 2013. FNS is
in the process of developing a proposed regulation that will include requiring sponsoring
organizations to vary the timing of sponsored facilities’ monitoring to make the reviews
unpredictable. Final regulation is expected to be published by September 30, 2013. Once the
final regulation is published, FNS will issue further guidance providing practical suggestions on
how to vary monitoring schedules.

OIG Position
FNS has stated that implementation of corrective actions will not be complete within one year
for this recommendation. Therefore, to reach management decision, we are working with FNS
to establish a time phased corrective action plan with interim completion dates for the
recommendation.

                                                               AUDIT REPORT 27099-0001-DA           7
Recommendation 3
Issue guidance for the 5-day reconciliation, so that monitors will perform the reconciliation
consistently, using standardized procedures to identify anomalies and specify action necessary to
correct and/or resolve common discrepancies.

Agency Response
FNS agrees with this recommendation and estimates completion by December 31, 2012. After
the in-depth State agency CACFP operations analysis, FNS will issue additional guidance to
include standard procedures for reconciliation reviews, specific corrective actions to identify and
resolve reconciliation reviews, and policy clarification on the disallowance of ineligible meals.

OIG Position
Given that implementation of the corrective action may take over a year, to reach management
decision, we are working with FNS to establish a time phased corrective action plan with interim
completion dates.




8    AUDIT REPORT 27099-0001-DA
Scope and Methodology
To identify CACFP sites that may be overstating their meal claims, OIG obtained FY 2010 data
for meal reimbursements for Michigan sites and FY 2009 data for sites in Florida. We validated
the data to ensure they were accurate and complete and, using data analysis techniques, we
identified CACFP sites that could be at higher risk of inflating their meal counts. We used the
following criteria to identify higher risk sites:

     ·   Sites with high meal claims based on enrollment and dollar volume;
     ·   Sites with higher average daily participation than enrollment;
     ·   Sites that were claiming more than three meals per child per day (i.e., claiming more
         than two meals and a snack or two snacks and a meal); and
     ·   Sites that were claiming more than 90 percent attendance every month.

We ranked the sites from highest fraud risk4 to lowest fraud risk based on these criteria. In
Florida, we selected the highest risk sites that were associated with one sponsor; in Michigan, we
selected the highest risk sites that were “independent” sites monitored directly by the State. In
Florida, we visited the four sponsors associated with these high risk sites first to interview
sponsor administrators of CACFP and to review the enrollment and monitoring documentation
for each site.

In total, we visited 93 sites in Florida and Michigan that we had identified as high risk or that
were within close proximity to a higher risk site. We visited these sites over a span of a few days
and found that 26 were closed or had discontinued the program, 5 were not home or did not
answer the door, 3 were on an approved fieldtrip, 2 were observing a religious holiday, and
1 served the meal too early for observation. We removed these 37 sites from our sample. Thus,
we visited and tested a total of 56 CACFP sites in Florida and Michigan.

During our visits to the sites, we observed the number of participants eating a meal. We varied
our visits to monitor all meal types, including breakfast, morning snack, lunch, afternoon snack,
and dinner. We performed two tests on participation during our visit. First, we performed the
“5-day reconciliation,” which monitors also use during their visits. Second, we performed a test
we called the “average daily participation test,” in which we compared the number of observed
participants to the prior month’s daily average number of participants. We also conducted an
analysis of selected monitor reviews from each State to determine if the sponsors were
monitoring their sites as required by CACFP guidelines. We conducted fieldwork from
March 2010 to December 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

4
  Fraud risks identify where fraud may occur within the organization, identify potential schemes used to commit
fraud, and identify events needing mitigation to prevent fraud.

                                                                          AUDIT REPORT 27099-0001-DA              9
Abbreviations


CACFP........................ Child and Adult Food Care Program
FNS ............................. Food and Nutrition Service
FY ............................... Fiscal Year
OIG ............................. Office of Inspector General
USDA.......................... Department of Agriculture




10     AUDIT REPORT 27099-0001-DA
Agency’s Response




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27099-0001-DA   11
United States
Department of    DATE:          December 7, 2011
Agriculture
                 AUDIT
Food and
Nutrition        NUMBER:        27099-01-DA
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712
                 FROM:          Audrey Rowe /S/
Alexandria, VA
22302-1500                      Administrator
                                Food and Nutrition Service

                 SUBJECT:      Identifying Areas of Risk in the Child and Adult Care Food Program
                               (CACFP) Using Automated Data Analysis Tools


                 This letter responds to the official draft report for audit report number 27099-01-DA,
                 Identifying Areas of Risk in the Child and Adult Care Food Program (CACFP) Using
                 Automated Data Analysis Tools. Specifically, the Food and Nutrition Service (FNS) is
                 responding to the three recommendations within the report.

                 FNS supports implementation of effective management controls to address identified
                 concerns. OIG identified several opportunities for improved controls: designing
                 inexpensive data analysis techniques for sponsoring organization monitors to target
                 error-prone facilities more frequently; encouraging sponsors to visit sites early in the
                 month and schedule their visits more randomly; and issuing guidance for the 5-day
                 reconciliation to assist sponsors in performing reconciliation consistently using
                 standardized procedures. FNS actions planned along with the proposed dates of
                 implementation are specified below.

                 OIG Recommendation 1:

                 Work with the States to design inexpensive data analysis techniques for sponsoring
                 organization monitors to target error-prone facilities more frequently.

                 Food and Nutrition Service Response:

                 FNS supports this recommendation. FNS will consult with stakeholders and review
                 information systems and processes to determine whether there are opportunities to use
                 existing data to help sponsors identify error-prone facilities. Based on this review, FNS
                 will consider developing guidance on high risk indicators and data analysis tools.

                 Estimated Completion Date: September 30, 2014
                                                                                  Page |2




OIG Recommendation 2:

Work with the States to encourage sponsors to visit sites early in the month and schedule
their visits more randomly.

Food and Nutrition Service Response:

FNS supports this recommendation. In accordance with requirements of section 331 of
the Healthy, Hunger-Free Kids Act of 2010 (P.L. 111-296), FNS is in the process of
developing a proposed regulation that will include requiring sponsoring organizations to
vary the timing of reviews of sponsored facilities to ensure that they are unpredictable to
the facility. FNS believes that unannounced reviews following a consistent pattern
undermines the intent of the Program’s unannounced review requirements and hinders a
sponsoring organization’s ability to uncover management deficiencies and program
abuse. The proposed regulation is expected to be published no later than June 30, 2012; a
final regulation is expected to be published by the end of Fiscal Year 2013. Further
guidance providing practical suggestions on how to vary monitoring schedules will be
issued upon publication of the final rule.

Estimated Completion Date: September 30, 2013


OIG Recommendation 3:

Issue guidance for the 5-day reconciliation, so that monitors will perform the
reconciliation consistently, using standardized procedures to identify anomalies and
specify action necessary to correct and/or resolve common discrepancies.

Food and Nutrition Service Response:

FNS supports this recommendation. FNS will issue additional guidance to include
standard procedures for reconciliation reviews, specific effective corrective actions to
identify and resolve reconciliation issues, and policy clarification on the disallowance of
ineligible meals. This guidance will be issued in December 2012, following the analysis
of the results of in-depth reviews of State agency CACFP operations conducted by FNS
in FY2010 and FY2011. Among other things, these reviews assessed the effectiveness of
State agency policies and procedures relating to the five-day reconciliation requirement.

Estimated Completion Date: December 31, 2012




                             AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer (1)
 Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday–Friday, 9:00 a.m.– 3 p.m. ET)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
